 

IN THE
Supreme Court of the Anited States

 

JANE DOE,
Petitioner,
Vs
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE

 

I, Brianne J. Gorod, do hereby declare that on November 30, 2020, as required
by Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the
Brief of Constitutional Accountability Center and The Rutherford Institute as Amici

Curiae in Support of Petitioner on counsel for each party to the above proceedings as

follows:
Jeffrey B. Wall Michael J. Wishnie
Acting Solicitor General Jerome N. Frank Legal Services Org.
U.S. Department of Justice P.O. Box 209090
950 Pennsylvania Ave. NW New Haven, CT 06520-9090
Washington, DC 20530-0001 michael.wishnie@yale.edu
SupremeCtBriefs@USDOJ.gov (203) 436-4780

(202) 514-2217

Counsel of Record for Respondent Counsel of Record for Petitioner
United States Jane Doe
I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 30, 2020.

Ridonve Tn

Brianne J. Gorod
Counsel for Amici Curiae
